           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  IMPROPERLY TITLED BANK ACCOUNTS
       FOR BENEFICIARIES WITH
       REPRESENTATIVE PAYEES


      March 2011   A-01-09-19055




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      March 31, 2011                                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Improperly Titled Bank Accounts for Beneficiaries with Representative Payees
           (A-01-09-19055)


           OBJECTIVE
           Our objective was to determine whether beneficiaries with representative payees had
           benefits deposited in improperly titled bank accounts.

           BACKGROUND
           Some individuals are not able to manage their finances because of their youth or mental
           and/or physical impairment. As a result, Congress granted the Social Security
           Administration (SSA) the authority to appoint a representative payee who receives and
           manages benefits on behalf of the beneficiary. 1

           To protect the beneficiary’s funds, SSA recommends that representative payees have
           benefits directly deposited into a bank account. The representative payee must title the
           bank account to establish the beneficiary’s ownership of the funds but at the same time
           restrict the beneficiary’s direct access to the funds. 2 The title of the account must also
           show that the representative payee has only a fiduciary (not personal) interest in the
           funds. Proper account titling allows Federal Deposit Insurance Corporation (FDIC)
           protection with FDIC-insured financial institutions and protects beneficiary funds from
           claims by a representative payee’s creditor. 3




           1
               The Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
            SSA, POMS, GN 02402.055. Any form of account title that the bank recognizes as establishing the
           beneficiary’s ownership of the funds but not direct access to them is acceptable.
           3
             In determining the amount of insurance available to each depositor, the FDIC shall presume deposited
           funds are actually owned in the manner indicated on the deposit account records of the insured
           depository institution. 12 C.F.R. § 330.5.
Page 2 - The Commissioner


Each year, SSA asks representative payees to account for the use of benefits received
on behalf of their beneficiaries on a form called the Representative Payee Report. 4
These Reports disclose how the representative payees are using the beneficiaries’
funds.

On the Report, the representative payee indicates any amount of savings for the
beneficiary as of the end of the reporting period. If there are reported savings, the
representative payee must answer the subsequent question asking, “How is the title of
the account listed?” He or she can choose between the following options:

      •   Your Name for Beneficiary’s Name
      •   Beneficiary’s Name by Your Name
      •   Other

If the representative payee selects ‘Other,’ then a subsequent question asks to “…show
the title of the account…” by writing down how the account title appears.

To perform our review, we obtained a file of Old-Age, Survivors, and Disability
Insurance (OASDI) beneficiaries and Supplemental Security Income (SSI) recipients
with representative payees who were not relatives and whose benefits were directly
deposited into a bank account as of August 2009. We selected a random sample of
250 from a single bank for detailed analysis. 5 For each sampled case, we subpoenaed
bank account title information. (See Appendix B for our scope, methodology, and
sampling results.)

RESULTS OF REVIEW
Based on our review, we estimate about 30,822 OASDI beneficiaries and SSI recipients
with non-relative representative payees have approximately $307 million in annual
benefits (or nearly $26 million each month) directly deposited into improperly titled bank
accounts. These improper titles (1) allow the beneficiaries to have direct access to their
own funds, even though SSA determined they were incapable of managing their own
finances; and/or (2) do not authenticate the beneficiaries’ ownership of the funds, as
well as the representative payee’s non-personal interest of the funds. If the beneficiary
is not restricted from accessing his/her benefits or allowing other individuals to access
the funds, the representative payee may not be managing funds on behalf of the
beneficiary’s best interests. This may lead to a beneficiary’s needs (such as food,
clothing, shelter, and medical care) not being met.




4
    SSA, POMS, GN 00605.001.
5
  For purposes of this audit, we considered the characteristics and findings observed for the selected
bank to be representative of any bank providing services to OASDI beneficiaries and SSI recipients with
representative payees.
Page 3 - The Commissioner


From the 250 sample cases, we
                                                          Chart 1: Sample Results
found situations where the bank
account titles were not correct,                     Unable to
according to SSA guidelines. 6                       Determine
                                                       34%
Specifically,
                                                                                            Improperly
                                                                                              Titled
    •   68 accounts (27 percent)                                                              27%
        were improperly titled; 7

    •   98 accounts (39 percent)
        were correctly titled; and                        Correctly
                                                           Titled
                                                           39%
    •   84 accounts (34 percent)
        were unable to be determined.

The 68 improperly titled accounts were set up in various ways based on ownership, as
shown in Table 1.

                     Table 1: Improper Account Title Ownership
                                                          Number of
                         Ownership                                                           Percent
                                                         Beneficiaries
    Total Beneficiaries With Account Access                  21                                   31%
      Individual Account – Beneficiary Only                    4                                   6%
      Joint Account – Beneficiary & Representative Payee     17                                   25%
    Total Beneficiaries With No Ownership                                       25               37%
      Individual Account – Representative Payee Only                            16               24%
      Joint Account – Representative Payee & Third Party                         9               13%
    Other 8                                                                     22               32%
         Total Improper Accounts                                                68              100%




6
   SSA, POMS, GN 02402.055. Of the 166 total cases we were able to review, 41 percent was improperly
titled.
7
  Fifty-one (75 percent) of these improperly titled accounts involved beneficiaries with a mental disorder.
In addition, six cases (9 percent) were adults over age 61, and five cases (7 percent) were children under
age 19. See Table B-3 in Appendix B for more information.
8
  For example, a case had a bank account title naming the representative payee and a third party as joint
trustees for the beneficiary.
Page 4 - The Commissioner


Beneficiaries with Account Access

The bank information we received indicated that 21 cases had bank account titles that
would allow the beneficiaries to have access to their funds. Of these 21 cases, 4 were
solely in the name of the beneficiary, while 17 were established as a joint account
between the beneficiary and representative payee.

For example, in March 2008, a beneficiary began receiving OASDI benefits for a mental
disorder. In March 2009, SSA appointed the beneficiary a representative payee.
According to the bank’s records, the bank account listed both the beneficiary and
representative payee as joint owners of the account. From March 2009 through
July 2010, the representative payee managed benefits totaling $19,077, to which the
beneficiary had access. We referred this case to SSA for development and in
July 2010, the bank account was updated.

Beneficiaries with No Ownership

We found 25 cases with bank account titles not indicating the beneficiaries’ ownership
of the funds. Of these 25 cases, 16 were solely in the name of the representative
payee, and 9 were established as a joint account between the representative payee and
an unknown third party.

For example, an SSI recipient with a mental disorder started receiving payments in
April 2009 through an appointed representative payee. The bank’s records indicated a
joint account had been established between the representative payee and an individual
who was not the recipient. From April 2009 through July 2010, the representative
payee managed $13,693 for the recipient. In this case, the recipient was not recorded
as the owner of the funds, yet another person had access to the funds besides the
representative payee. Based on our referral, SSA contacted the representative payee
and subsequently removed the direct deposit information pending proof of the corrected
bank account. The representative payee responded within a short timeframe and
provided the necessary verification of the account title.

Actions Taken on Improperly Titled Bank Accounts

For the 68 cases, SSA contacted the representative payees to have the bank account
titles corrected. Table 2 shows the actions SSA took on these cases.
            Table 2: Actions Taken on Incorrect Bank Account Titles
                                                   Number of
                         Action                                  Percent
                                                  Beneficiaries
      Corrected Bank Account Title                    46            68%
      Removed Direct Deposit                          12            17%
      Removed/Re-assigned Representative Payee         8            12%
      Pending Correction                               2             3%
       Total                                          68          100%
Page 5 - The Commissioner


On 12 cases, SSA removed the bank information from the beneficiary’s record, thereby
allowing the representative payee to receive future benefits via paper check as opposed
to direct deposit. Either this was done at the request of the representative payee or
SSA until such time that proof of a properly titled account was provided.

SSA also determined eight beneficiaries needed new representative payees, or no
longer required representative payees because the beneficiaries were able to manage
their own funds. In six cases, SSA determined the beneficiaries no longer needed
representative payees and instead could receive benefits directly. For the remaining
two cases, SSA appointed a new representative payee for the beneficiary.

For example, an individual started receiving SSI payments in April 2004 for a mental
disorder. In February 2006, a representative payee was appointed who asked to have
the payments direct deposited into a bank account beginning February 2007. From
February 2007 through July 2010, the representative payee managed $29,166 in
payments. When we referred this case to SSA, the Agency determined the recipient
was able to manage her own financial matters and subsequently removed the
representative payee from the recipient’s record.

In another example, a representative payee began managing the funds of an SSI
recipient in September 2000. In December 2000, the representative payee had the SSI
payments direct deposited into a bank account. From December 2000 to July 2010, the
representative payee handled $95,862 on behalf of the recipient. When we referred this
case to SSA, the Agency determined another representative payee was more suitable
to handle the management of these payments, and subsequently assigned an
organizational payee for the recipient.

Review of Representative Payee Reports

For each of the 68 improperly titled cases, we retrieved the latest annual Representative
Payee Report submitted to SSA. We then determined how each representative payee
responded to the question of how the bank account was titled. The Report instructs the
representative payee to answer the account title question only if he or she indicates in a
preceding question that some funds were saved. SSA policy requires field offices to
follow up on questionable account titles only if the amount of saved funds exceeds
$500. 9 Table 3 summarizes these results.




9
    SSA, POMS, GN 00605.068.
Page 6 - The Commissioner


                  Table 3: Representative Payee Report - Response on
                                       Account Title
                                                     Number of
                             Response                          Percent
                                                      Reports
                Your Name for Beneficiary's Name          8      12%
                Beneficiary's Name by Your Name           6       9%
                Other                                     4       6%
                              Subtotal                   18      27%
                Question Not Answered 10                 41      60%
                No Report Available                       9      13%
                 Total                                   68     100%

As illustrated in Table 3, 14 reports (20 percent) answered affirmatively for having a
proper account title; however, our analysis determined these answers were incorrect.
Four additional reports (6 percent) contained the response of “Other,” which was either
not further clarified as to how the account title was actually reflected or could have led
SSA to question the account title. 11 Of these 18 reports, 4 showed savings over $500,
yet the account titles were not corrected. 12 According to SSA’s policy, the field office
should have followed-up on these four cases because they had questionable account
titles and savings over $500. We found no evidence that the field office followed-up on
these cases. If the field office had followed-up, it should have identified and corrected
the account titles.

Bank Account Titles Unable To Be Determined

We were unable to analyze the bank account title of 84 sample cases, for various
reasons.

     •   In 37 cases, the bank account or representative payee information changed
         during our analysis. For example, a new representative payee was assigned to a
         beneficiary shortly before we referred the case to SSA.

     •   In 31 cases, the bank did not provide account title information, or we were unable
         to determine the account title from the information provided. For instance, some
         data we received from the bank (1) displayed the account titles in a vague
         manner, or (2) included incomplete account titles. When we contacted the bank
         to verify these account titles, they indicated the information supplied to us
         correctly reflected their system records.

10
  The 41 reports did not indicate an answer for the question on account title. Only 1 of the 41 reports
indicated saved funds of more than $500.
11
  For example, a representative payee answered “Other” on the account title question and for the
subsequent section wrote simply “Beneficiary’s Name” as the title of the account.
12
  Since these payees provided incorrect information on the Report regarding account titling, the savings
amount reported may also be incorrect and additional cases could have savings over $500.
Page 7 - The Commissioner


   •   In 16 cases, benefits were no longer paid because of suspension or termination
       of benefits. For example, the beneficiary went to prison or died. Therefore, we
       did not determine whether the bank account was titled properly for these cases.

CONCLUSION AND RECOMMENDATIONS
We found situations where the bank account titles were not correct for non-relative
representative payees, according to SSA’s guidelines. Correct account titling is one
control SSA uses to ensure representative payees are properly managing beneficiaries’
funds.

Based on our review, we estimate about 30,822 OASDI beneficiaries and SSI recipients
with representative payees have approximately $307 million in annual benefits (or
nearly $26 million each month) directly deposited into improperly titled bank accounts.

If the beneficiary is not restricted from accessing his or her benefits, or other individuals
have access to the funds, the representative payee may not be managing the benefits
on behalf of the beneficiary’s best interests. We recommend the Agency:

1. Issue a reminder on proper bank account titling to staff who appoint representative
   payees and who assist representative payees to establish/change direct deposit
   information.

2. Remind SSA employees to adhere to the Agency’s policy to follow-up for non-
   relative representative payees when the Representative Payee Report indicates an
   improper bank account title and the conserved fund balance is greater than $500.

3. Consider revising the Representative Payee Report to ask specifically how the bank
   account is titled (regardless of whether the representative payee saved any of the
   funds), and/or require that the representative payee include a copy of a bank
   document as proof of account title.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendations 1 and 3, but disagreed with Recommendation 2.
According to SSA, it disagreed because we inaccurately stated its policy by not
including the fact that when the payee is a parent, follow-up is only done when the
conserved fund balance exceeds $1,250 (as opposed to the $500 balance for non-
parents). However, we did not include the policy for parents in our report because our
review focused only on non-relative payees (that is, none of the payees in our review
were parents of the beneficiaries)—as stated in the background section of this report
and in Appendix B.

We believe our report demonstrates the need for SSA to follow its own established
policies of verifying properly titled bank accounts for non-parents. If a Representative
Payee Report discloses an amount of conserved funds greater than $500 (for a non-
Page 8 - The Commissioner


parent), SSA policy instructs the field office to either approve or question the
documented bank account title. If the account title is not acceptable, the field office is to
contact the representative payee for correction. We believe SSA should follow its policy
to mitigate instances of improperly titled bank accounts.

Proper account titling is required under certain SSA policies to protect the beneficiary’s
funds from possible misuse. In addition, FDIC provides protection to those same funds
from any claims made by a representative payee’s creditor, provided the account title is
accurate.

Despite SSA’s disagreement to recommendation 2 in its written comments, the Agency
agreed to issue a reminder to employees of the policy on following up with
representative payees—for payees who are not parents as well as those who are
parents. Therefore, SSA is actually taking corrective action on all three
recommendations. (See Appendix C for the Agency’s comments.)




                                           Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sampling Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
FDIC     Federal Deposit Insurance Corporation
OASDI    Old-Age, Survivors, and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                    Appendix B

Scope, Methodology, and Sampling Results
To accomplish our objective, we:

     Reviewed applicable sections of the Social Security Act and other relevant
      legislation, as well as the Social Security Administration’s (SSA) regulations, rules,
      policies, procedures, and relevant reports.

     Reviewed prior Office of the Inspector General reports.

     Obtained a file of 4,278,318 Old-Age, Survivors, and Disability Insurance (OASDI)
      beneficiaries and Supplemental Security Income (SSI) recipients with individual
      representative payees and direct deposit as of August 2009. We then removed
      additional records with

                  duplicate Social Security numbers,
                  representative payees related to their respective beneficiaries,
                  organizational representative payees, and
                  non-U.S. direct deposit bank information.

     Summarized the remaining population by count of beneficiaries under each bank
      institution (see Table B-1).

                                Table B-1: Total Population by Bank
                                                         Number of          Percent of All
                               Bank
                                                        Beneficiaries       Beneficiaries
                  Bank A                                   12,627                11%
                  Bank B                                      7,515                7%
                  Bank C                                      5,655                5%
                  Bank D                                      5,449                5%
                  Bank E                                      2,677                2%
                  Sub-Total (Top 5 Banks) 1                  33,923               30%
                  All Other Banks2                           79,379               70%
                  Total (All Banks)                         113,302               100%



1
 Altogether, these top five banks had about 19,900 banking offices nationwide, with nearly 30 percent
belonging to Bank A.
2
    Each bank had less than 2 percent of the total population of beneficiaries.


                                                      B-1
     Selected the bank with the highest number of beneficiaries from our population,
      Bank A, for further review. For audit purposes, we considered the characteristics
      and findings observed for Bank A to be representative of any bank providing
      services to the total population.

      Of the 12,627 beneficiaries with direct deposit at Bank A, we selected a random
      sample of 250 for detailed analysis.

For each sampled case, we:

     Subpoenaed bank account title information.

     Examined the account title and identified 82 cases that appeared incorrect.

     Forwarded these 82 cases to SSA for further analysis to verify the bank account
      titles. The Agency determined 68 were improperly titled. Table B-2 shows the
      cases by SSA region. 3

                                Table B-2: Cases Determined to be
                                          Improperly Titled
                                 Region           Cases      Percent
                            1 - Boston               3          4%
                            2 - New York             7         10%
                            3 - Philadelphia         5          7%
                            4 - Atlanta             19         28%
                            5 - Chicago              1          2%
                            6 - Dallas               4          6%
                            7 - Kansas City          3          4%
                            8 - Denver               0          0%
                            9 - San Francisco       24         36%
                           10 - Seattle              2          3%
                            Total                   68        100%

We also reviewed the most recent Representative Payee Reports for the 68 cases and
analyzed the section specific to bank account title establishment.

We further analyzed the 68 cases to determine each beneficiary’s disability. If a
beneficiary was not disabled, we determined whether he or she was a child under
age 19 or an adult over age 61(who was receiving retirement benefits). See Table B-3.




3
    SSA’s field organization is decentralized into 10 regions nationwide to provide services at the local level.


                                                       B-2
                      Table B-3: Disability or Child/Adult Designation
                    Disability or Child/Adult      Cases       Percent 4
                    Mental                           51          75%
                    Adult (over age 61)               6           9%
                    Child (under age 19)              5           7%
                    Neurological                      2           3%
                    Cardiovascular                    1           2%
                    Endocrine                         1           2%
                    Respiratory                       1           2%
                              5
                    Unknown                           1           2%
                     Total                           68         100%

We conducted our audit in Boston, Massachusetts, between April and August 2010.
We tested the data obtained in our audit and determined them to be sufficiently reliable
to meet our objective. The entities audited were SSA’s field offices under the Deputy
Commissioner for Operations. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

SAMPLE RESULTS AND ESTIMATES/PROJECTIONS

                             Table B-4: Population and Sample Size
    All OASDI beneficiaries and SSI recipients with non-relative                           113,302
    representative payees and direct deposit of benefits as of August 2009
    Population size (OASDI beneficiaries and SSI recipients from above                      12,627
    with direct deposit at Bank A)
    Percent of OASDI beneficiaries and SSI recipients with bank accounts                       11%
    at Bank A
    Sample size (OASDI beneficiaries and SSI recipients sampled from the                        250
    population of Bank A customers)




4
    The total percent column equals 102 percent because of rounding.
5
 An unknown or invalid disability does not have a medical meaning and is not listed in SSA’s Program
Operations Manual System.


                                                   B-3
                                                         Results and
Table B-5: Number of Beneficiaries                                           Estimate to All
                                                        Projections to
with Incorrectly Titled Bank Accounts                                            Banks
                                                           Bank A
Identified in Sample                                                68
Point Estimate                                                       3,435          30,822
Projection Lower Limit                                               2,859
Projection Upper Limit                                               4,061
  Note: All projections are at the 90-percent confidence level.



Table B-6: Monthly Benefits Paid to                      Results and
                                                                             Estimate to All
Beneficiaries with Incorrectly Titled                   Projections to
                                                                                 Banks
Bank Accounts                                              Bank A
Identified in Sample                                               $56,468
Point Estimate                                                $2,852,110       $25,591,967
Projection Lower Limit                                        $2,318,533
Projection Upper Limit                                        $3,385,688
  Note: All projections are at the 90-percent confidence level.



Table B-7: Annual Benefits Paid to                       Results and
                                                                             Estimate to All
Beneficiaries with Incorrectly Titled                   Projections to
                                                                                 Banks
Bank Accounts                                              Bank A
Identified in Sample                                              $677,622
Point Estimate                                              $34,225,326      $307,103,658
Projection Lower Limit                                      $27,822,396
Projection Upper Limit                                      $40,628,256
  Note: All projections are at the 90-percent confidence level.




                                                  B-4
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM

Date:      March 23, 2011                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis     /s/
           Deputy Chief of Staff

Subject:   Updated Office of the Inspector General (OIG) Draft Report, “Improperly Titled Bank Accounts
           for Beneficiaries with Representative Payees” (A-01-09-19055)—INFORMATION

           Thank you for the opportunity to review the updated draft report. Attached are our revised
           comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Chris Molander, Senior Advisor for Audits, at (410) 965-7401.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “IMPROPERLY TITLED BANK ACCOUNTS FOR BENEFICIARIES WITH
REPRESENTATIVE PAYEES” (A-01-09-19055)

We offer the following responses to your recommendations.

Recommendation 1

Issue a reminder on proper bank account titling to staff who appoint representative payees and
who assist representative payees to establish/change direct deposit information.

Response

We agree. On January 7, 2011, we published an Administrative Message (AM-11002) to remind
employees of our policy regarding proper bank account titling for representative payees.

Recommendation 2

Remind SSA employees to adhere to the agency’s policy to follow-up when the Representative
Payee Report indicates an improper back account title and the conserved fund balance is greater
than $500.

Response

We disagree because you inaccurately state our policy. Our policy requires a follow-up for cases
where conserved funds exceed $500 and the representative payee is a non-parent or an
organization. Where the representative payee is a parent, we require follow-up where amounts
exceed $1,250. We will issue an AM to remind employees about our policy for following-up
with representative payees.

We suggest you reword the recommendation to read:

Remind employees to adhere to the agency’s policy to follow-up when the Representative Payee
Report indicates:

   •   An improper bank account title, the representative payee is a non-parent, and conserved
       funds exceed $500;
   •   An improper bank account title, the representative payee is a parent, and conserved funds
       exceed $1,250.

Comment Pertaining to Recommendation 2

Also, please consider replacing the fourth sentence in the last paragraph on page 5 with the
following:




                                               C-2
       Agency policy requires field offices to follow-up on questionable account titles when
       saved funds exceed $500 and the representative payee is a non-parent. If the
       representative payee is a parent, field offices must follow-up on questionable account
       titles when savings exceed $1,250.

We suggest that you also adjust the footnote accompanying this text to cite GN 00605.070,
Reviewing the SSA-623-OCR-SM (08/2007), GN 00605.074, Reviewing the SSA-6234-OCR-SM
(08/2007), and GN 00605.072, Reviewing the SSA-6230-OCR-SM (08/2007).

Recommendation 3

Consider revising the Representative Payee Report to ask specifically how the bank account is
titled (regardless of whether the representative payee saved any of the funds), and/or require that
the representative payee include a copy of a bank document as proof of account title.

Response

We agree. We will look into the possibility of revising the Representative Payee Report, while
also considering the effect it may have on our resources.




                                                C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Kevin Joyce, IT Specialist

   David York, Program Analyst

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-19055.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
